  December 2, 2004




Financial Management
Contracts Classified as
Unreconcilable by the Defense
Finance and Accounting Service
(D-2005-022)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ACO                   Administrative Contracting Officer
ACRN                  Accounting Classification Reference Number
AMCOM                 U.S. Army Aviation & Missile Command
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contact Management Agency
DFAS                  Defense Finance and Accounting Service
MOCAS                 Mechanization of Contract Administration Services
PCO                   Procurement Contracting Officer
RAID                  Request and Inspection of Documents
SAIC                  Science Applications International Corporation
ULO                   Unliquidated Obligation
.                              INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704




    MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                     (COMPTROLLER)/CHIEF FINANCIAL OFFICER
                   ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
                     MANAGEMENT AND COMPTROLLER)
                   DIRECTOR. DEFENSE CONTRACT MANAGEMENT
                                                                           December 2, 2004




                     AGENCY
                   DIRECTOR, DEFENSE FINANCE AND ACCOUNTJNG
                     SERVICE
    SUBJECT: Report on Contracts Classified as Unreconcilable by the Defense Finance
             and Accounting Service (Contract No. DAAHOl-92-C-R399) (Report
             No. D-2005-022)

          We are providing this report for your use and infonnation. We considered
    management comments on a draft of this report when preparing the final report.
            Comments on the draft of this report confonned to the requirements of DoD
    Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
    required.
             We appreciate the courtesies extended to the staff. Questions should be directed
    to Mr. James L. Komides at (614) 751-1400, extension 211 or Mr. Jolm K. IsseJ at (614)
    751-1400, extension 212. See Appendix B for the report distribution. The team members
    are listed inside the back cover.


                                            ;#~~~
                                            Pau~ranetto,      CPA
                                          Assistant Inspector General
                                          Defense Financial Auditing
                                                    Service
          Office of the Inspector General of the Department of Defense
Report No. D-2005-022                                                   December 2, 2004
   Project No. D2004FJ-0094

      Contracts Classified as Unreconcilable by the Defense Finance
                         and Accounting Service
                  (Contract No. DAAH01-92-C-R399)

                                 Executive Summary

Who Should Read This Report and Why? Defense personnel in the areas of
acquisition and finance and accounting who are responsible for maintaining and closing
out contracts, should read this report. It discusses contracts considered “out of balance”
and “unreconcilable” because of lost documentation.

Background. Army Contract No. DAAH01-92-CR399 was awarded in 1992 to procure
systems and other engineering support for the Army. Defense Finance and Accounting
Service Columbus, PricewaterhouseCoopers, Tessada Associates and the Defense
Contract Audit Agency made several attempts to reconcile the contract, but it was never
fully reconciled because 62 essential documents were missing. A full reconciliation
includes a review of all modifications and disbursements and is a requirement Defense
Finance and Accounting Service Columbus must meet before closing a contract.

Results. As a result of additional follow-up work we performed at the contractor’s
facility, we located the missing documentation and provided it to the Defense Finance
and Accounting Service Columbus. Additionally, we identified a potential $12,604 to
$231,219 overpayment to the contractor for which collection efforts had not been
initiated because the contract could not be fully reconciled until the missing
documentation was obtained.

Now that the missing documentation has been provided to the Defense Finance and
Accounting Service Columbus; the contract needs to be reconciled, the potential
overpayment confirmed, and actions taken to recover any overpayment. Only then
should the Defense Finance and Accounting Service Columbus proceed to close this
contract. The Under Secretary of Defense (Comptroller) is in the process of issuing new
guidance to improve the likelihood that missing documentation on other contracts is
located.

Management Comments. The Deputy Director of Commercial Pay Services at the
Defense Finance and Accounting Service Columbus concurred with the
recommendations; therefore, no further comments are required. See the Finding section
of the report for a discussion of management comments and the Management Comments
section of the report for the complete text of the comments.
Table of Contents

Executive Summary                              i

Background                                    1

Objectives                                    2

Finding
     Contract No. DAAH01-92-C-R399            3

Appendixes
     A. Scope and Methodology                  9
         Management Control Program Review     9
         Prior Coverage                        9
     B. Report Distribution                   10

Management Comments
     Defense Finance and Accounting Service   13
Background
    Army contract DAAH01-92-C-R399 was awarded to Science Applications
    International Corporation (SAIC) on August 28, 1992, to provide systems and
    software engineering support for the U.S. Army. The procuring contract office
    was located at the U.S. Army Aviation & Missile Command (AMCOM) in
    Huntsville, Alabama. The Defense Contract Management Agency (DCMA)
    office in San Diego, California, administered the contract. The Army made
    388 modifications to the contract during its life.

    The Army obligated a total of $130,914,071 on the contract through modification
    number P00388, which was the final modification number. The Defense Finance
    and Accounting Service (DFAS) Columbus used every available accounting
    classification reference number (ACRN) in the Mechanization of Contract
    Administration Services (MOCAS) system to track modifications and funding.

    At the time of the audit, the contract had an unliquidated obligation (ULO)
    balance of $3,991,168 in the MOCAS system at the contract level. According to
    the Administrative Contracting officer (ACO), there were no outstanding bills
    awaiting payment. However, there were 206 ACRNs with negative balances.
    Therefore, the contract could not be closed in the MOCAS system until a full
    reconciliation was performed.

    Several attempts to reconcile contract DAAH01-92-C-R399 were made during its
    life, with the first occurring in 1998. Many of these efforts were made to identify
    the adjustments that were needed to prevent funds from canceling on the contract.
    Besides DFAS Columbus, outside contractors PricewaterhouseCoopers and
    Tessada Associates, and the Defense Contract Audit Agency (DCAA) have all
    been a part of the efforts to reconcile the contract. However, none of those prior
    reconciliation efforts were considered a “full reconciliation.” A full
    reconciliation is an exhaustive reconciliation that includes a review of all
    modifications and disbursements, and is the type of reconciliation that is required
    to close contracts.
    In an attempt to perform a full reconciliation, DFAS Columbus personnel
    performed a “Request and Inspection of Documents” (RAID) in July 2003.
    However, the critical documents required to perform a full reconciliation could
    not be found. In total, 14 modifications and 48 vouchers paid by DFAS
    Columbus were missing. The combined dollar value of the missing documents
    was $20,305,455.

    In accordance with “Unreconcilable Contract Guidance,” DFAS Columbus
    attempted to contact the ACO, the Procurement Contracting Officer (PCO), and
    the DFAS St. Louis accounting station to request assistance in obtaining missing
    documentation.

    DFAS Columbus was able to obtain missing modifications or was provided
    documentation to show that the modifications were either canceled or never
    issued. However, DFAS Columbus efforts were not successful in obtaining the
    missing invoices required to reconcile the contract.


                                         1
    Therefore, on January 30, 2004, DFAS Columbus notified our office that Army
    contract number DAAH01-92-C-R399 was unreconcilable because of the missing
    documentation.

    The Office of the Inspector General of the Department of Defense reached an
    agreement with the Under Secretary of Defense (Comptroller)/Chief Financial
    Officer on November 14, 2003. We agreed that when DFAS Columbus
    determines that a contract is unreconcilable because of missing documentation,
    our office will review the adequacy of actions taken by DFAS Columbus and
    DCMA activities to obtain the documents needed to fully reconcile the completed
    contract to allow closure in the MOCAS system. If our office agrees with the
    assessment of DFAS Columbus and DCMA that the contract is unreconcilable,
    DFAS Columbus will forward the contract closeout summary to the Director of
    DFAS requesting approval to close the contract in the MOCAS system.


Objectives
    Our overall objective was to review the actions DFAS Columbus and DCMA
    activities took in attempting to locate missing documentation and reconcile
    contracts that were considered unreconcilable. See Appendix A for a discussion
    of the audit scope and methodology.




                                       2
           Contract No. DAAH01-92-C-R399
           On January 30, 2004, the Defense Finance and Accounting Service
           Columbus notified our office that they had determined that Army contract
           number DAAH01-92-C-R399 was unreconcilable due to missing
           documentation and all possible actions to locate the missing
           documentation had been taken.

           During the audit, we located all of the missing documentation and
           provided it to the Defense Finance and Accounting Service Columbus.
           Additionally, we identified a potential overpayment to the contractor
           between $12,604 and $231,219 for which collection efforts had not been
           initiated because the contract could not be fully reconciled until the
           missing documentation was obtained.

           Now that the missing documentation has been provided to the Defense
           Finance and Accounting Service Columbus; the contract needs to be
           reconciled, the potential overpayment confirmed, and actions taken to
           recover any overpayment. Only then should Defense Finance and
           Accounting Service Columbus proceed to close this contract.

           The Under Secretary of Defense (Comptroller) is in the process of issuing
           new guidance to improve the likelihood that missing documentation on
           other contracts is located.


Documentation Needed for Contract Closure
    Army contract DAAH01-92-C-R399 had been awaiting closure in MOCAS for
    more than 2 years primarily because 48 invoices, valued at $20.3 million, could
    not be located. DFAS Columbus needed the invoices to reconcile DoD
    accounting documentation to the payment information in the MOCAS system.
    This internal control process was designed to ensure that payments made to
    contractors are valid, and any overpayments are recovered.


Actions Taken on Missing Documents
    DFAS Columbus personnel contacted personnel in DCMA San Diego, AMCOM,
    and DFAS St. Louis in July and August 2003 to locate missing documentation
    related to Army contract number DAAH01-92-C-R399. DCMA San Diego
    personnel told DFAS Columbus that no information could be located on the
    contract.

    Although the PCO at AMCOM did provide some details on missing
    modifications, DFAS Columbus was not able to obtain assistance from the
    accounting station at DFAS St. Louis because data related to the contract were no
    longer available in the accounting system. During the audit, DFAS Columbus
    tried to contact other accounting stations associated with the contract to get

                                        3
information about missing documentation but either received a similar response
that data were no longer available, or received no response at all.

ACOs at DCMA activities are responsible for the closeout of contracts. Their
assistance to DFAS Columbus is critical to the closing of contracts in MOCAS
that are unresolved for excessive periods because the documentation that could be
used to resolve out of balance conditions is missing.

The San Diego DCMA office was initially not very helpful when DFAS
Columbus requested information on the contract. DFAS Columbus conversation
records indicate the San Diego DCMA office was initially contacted in August
2003 and the ACO responded that no additional information could be located on
the contract.

At our request, DFAS Columbus contacted the San Diego DCMA office again on
February 27, 2004, via email, in an attempt to locate missing documents. At that
point, 6 months after the initial inquiry, the ACO indicated that the contract and
all modifications were available but locating missing invoices would require
contractor assistance. The ACO added that the contractor was reluctant to
provide that assistance.

When we visited the ACO at the San Diego DCMA office, we obtained their
assistance as well as that of the contactor and were able to obtain the needed
documents. The documents are listed in the table below.

                Missing Vouchers and Location of Data Found

   Voucher                                      Voucher
   Number             Amount         Location   Number     Amount          Location
   C02823        $      686,909.93     SAIC     C56609      175,449.39       SAIC
   C02823              455,476.85      SAIC     C58137      695,289.68       SAIC
   C06352              103,656.44      SAIC     C58650      659,768.00       SAIC
   C06995                 6,399.12     SAIC     C59450       18,706.46       SAIC
   C10660                 5,911.16     SAIC     C61835      639,643.88       SAIC
   C11047              838,330.54      SAIC     C68194      623,577.17       SAIC
   C16915                75,931.07     SAIC     C68694    1,216,150.18       SAIC
   C19974                2,915.74      SAIC     C69885    1,502,934.64       SAIC
   C20260              443,075.38      SAIC     C73217      970,519.84       SAIC
   C21301            1,507,816.39      SAIC     C73217       12,994.86       SAIC
   C25152               13,103.26      SAIC     C73364      198,920.61       SAIC
   C29795               60,744.14      SAIC     C90851    2,646,792.00       SAIC
   C31480              125,834.01      SAIC     C94495       50,939.37       SAIC
   C31760                 1,787.46     SAIC     C95110       14,099.18       SAIC
   C32646                56,275.51     SAIC     C96885    1,137,416.85       SAIC
   C36372                 5,822.45     SAIC     C97219       38,092.02       SAIC
   C38616                18,465.50     SAIC     D39163      446,025.76       SAIC
   C39702              738,994.00      SAIC     E0216       165,640.96       SAIC
   C50245              715,590.15      SAIC     E0798        41,184.41       SAIC
   C50342              603,137.20      SAIC     E3479       104,670.10       SAIC
   C50623                68,102.11     SAIC     E5610           570.88       SAIC
   C51889              311,583.97      SAIC     E6143           397.00       SAIC
   C53227              113,581.07      SAIC     E8529       618,273.39       SAIC
   C56528              340,554.83      SAIC     E8785     1,027,400.24       SAIC

                                                Total     $20,305,455.15



                                       4
    We asked management personnel in the San Diego DCMA office why the
    assistance it provided us was not provided to DFAS Columbus earlier. They
    stated that they believed that the need to research and provide additional
    documentation was not required because both DCMA and DFAS Columbus had
    declared the contract unreconcilable. Contractor personnel indicated they had the
    same understanding.

    The contractor did not want to use limited resources to search archived files for
    the missing invoices if DFAS Columbus had already determined the contract was
    not reconcilable.

    At the time of the audit, there was limited guidance on actions an entity should
    take to find missing documentation on unreconcilable contracts. A local DFAS
    Columbus publication, “Unreconcilable Contract Guidance,” was the only policy.
    This guidance was only binding for personnel at DFAS Columbus. The Office of
    the Under Secretary of Defense (Comptroller) was in the process of revising the
    DoD Financial Management Regulation, volume 10, chapter 20 to incorporate
    provisions for actions needed throughout DoD to obtain missing documents on
    contracts classified as unreconcilable; therefore, we did not make
    recommendations to publish new guidance.

    Unreconcilable Contract Guidance Improvements. During the audit, we
    suggested some changes to improve the effectiveness of the DFAS Columbus
    process of searching for missing documents. The existing DFAS Columbus
    guidance contained a certification process that did not provide a complete and
    valid audit trail. Therefore, as part of our effort to obtain the missing documents,
    we expanded the list of entities to whom we sent the certification memorandum,
    and specifically addressed each DoD activity that was a potential source of the
    documentation needed. It is important that each DoD activity whose assistance is
    requested in obtaining missing documentation respond with a signed certification
    disclosing whether documentation is available. The certification letters we used
    were specifically addressed to the ACO, PCO, accounting station, records holding
    activity, DFAS Columbus reconciliation branch, and department-level Military
    representatives. In addition, we are recommending that DFAS Columbus design a
    checklist to track the entire process of missing documentation searches. This
    would help ensure all possible sources of information have been considered.
    DFAS Columbus accepted our recommended changes and stated it plans to
    incorporate them into revised guidance.


Potential Contractor Overpayment
    During the audit, we obtained a copy of a Defense Contract Audit Agency
    (DCAA) report on the contract DAAH01-92-C-R399, report number 4171-
    2003B17330001, dated April 8, 2003, which was a DCAA review requested by
    the San Diego DCMA office. DCAA reviewed contractor billings and payments
    received between August 28, 1992, and March 31, 2001. DCAA reported that the
    contractor had billed $127,732,309 and had been paid $127,744,914, indicating a
    potential overpayment of $12,604. DCAA was not able to reconcile the amount
    recorded in MOCAS. The DCAA report was provided to the San Diego DCMA


                                         5
     office and DFAS Columbus on April 9, 2003. However, neither the San Diego
     DCMA office nor DFAS Columbus initiated collection efforts for the
     overpayment identified by DCAA.

     Documentation showed that the ACO did not initiate collection because she
     wanted to wait until the ongoing reconciliation efforts were completed.
     According to DFAS Columbus personnel, they had not initiated recovery action
     because of their inability to independently verify the overpayment with
     supporting documentation in MOCAS. MOCAS records at the time of the DCAA
     review indicated that total MOCAS disbursements were $127,963,528 (versus the
     $127,744, 914 that DCAA reported), indicating a potential overpayment of
     $231,219. Until the contract is fully reconciled, the possibility of an overpayment
     between $12,604 and $231,219 remains.


Other Matters of Interest
     Companion Contract to Army Contract DAAH01-92-C-R399. Because all
     available ACRNs had been used, the Army wrote a new contract to allow
     continued work by SAIC. The Army issued contract number DAAH01-97-C-
     0330 on September 12, 1997. According to the ACO, both contracts were
     completed on September 30, 2001, using modification P00157. In order to
     properly close the new contract, DAAH01-92-C-R399 (the original contract) files
     need to be maintained because they contain essential contractual information.

     Accountable Stations and Funding Activities. Contract DAAH01-92-C-R399
     was assigned to the following accounting stations.
            1.     DFAS, St. Louis, Missouri
            2.     DFAS, Charleston, South Carolina
            3.     DFAS, Rock Island, Illinois
            4.     DFAS, Indianapolis, Indiana
            5.     DFAS, Dayton, Ohio
            6.     DFAS, Lawton, Oklahoma
            7.     DFAS, Seaside, California
            8.     DFAS, Rome, New York
            9.     DFAS, Norfolk, Virginia
            10.    DFAS, Columbus, Ohio
            11.    DFAS, Limestone, Maine
            12.    Eighth U.S. Army, Korea

     In addition to the 12 accounting stations, we identified approximately 60 activities
     funding this contract. DFAS Columbus needs to contact each accounting station
     and funding activity to ensure that the contract is closed in both MOCAS and by
                                          6
    all applicable DoD Components. This report addresses only the closure of
    contract number DAAH01-92-C-R399, and not the new contract.

Actions Needed to Close Contract
    Now that previously missing documents have been provided to DFAS Columbus,
    it needs to immediately perform a complete and full reconciliation of this
    contract, making both internal and external adjustments as needed. Once the
    adjustments are made and any potential overpayment identified and recovery
    undertaken, DFAS Columbus should proceed with final closure of this contract.


Recommendations and Management Comments
    We recommend that the Director, Defense Finance and Accounting Service
    Columbus:

          1. Perform a final contract close out reconciliation on
    Contract No. DAAH01-92-C-R399, using the previously missing documents
    provided.

    Management Comments. The Deputy Director of Commercial Pay Services
    concurred with the recommendation and stated that the contract will be assigned
    to a contractor supporting the Commercial Pay Services Contract Reconciliation
    office.

          2. Confirm the amount of potential overpayment provided to the
    contractor and initiate recovery actions, as necessary.

    Management Comments. The Deputy Director of Commercial Pay Services
    concurred with the recommendation and stated that confirmation of any money
    owed will be dependent upon completion of the full reconciliation.

           3. Adjust the Mechanization of Contract Administration Services
    system using internal voucher entries, as needed, and proceed with the final
    closure process on this contract.

    Management Comments. The Deputy Director of Commercial Pay Services
    concurred with the recommendation and stated that any adjustments required will
    be prepared at the completion of the reconciliation.




                                        7
        4. For other unreconcilable contracts, expand the distribution list of
the DFAS certification memorandum and specifically address each activity
that is a potential source of the various types of documentation needed, and
design a checklist to track the entire process of missing documentation
searches.

Management Comments. The Deputy Director of Commercial Pay Services
concurred with the recommendation. The Deputy Director stated that the
Unreconcilable Contract Guidance that the Defense Finance and Accounting
Service Columbus issued and subsequently implemented in July 2004 includes
the certification letters and an unreconcilable contract checklist.




                                   8
Appendix A. Scope and Methodology
    We reviewed the steps taken by DFAS Columbus and DCMA in their attempt to
    reconcile contracts considered unreconcilable. The contract was valued at
    $130.9 million, although the exact figure cannot be verified until a complete
    reconciliation is performed. We conducted interviews and reviewed records
    maintained by DFAS Columbus, DCMA San Diego, DFAS St. Louis, and
    AMCOM. The records included all relevant correspondence, emails, and
    MOCAS system data, as well as contractor system data.

    We performed this audit from February 2004 through July 2004 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not evaluate the general and
    application controls of the MOCAS system that processes disbursement and
    obligation data, although we used data produced by MOCAS to conduct the audit.
    We did not evaluate the controls because the objective of this audit was to review
    the actions taken to locate missing contract documents. Not evaluating the
    controls did not affect the results of the audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    focuses on the area of Financial Management by providing coverage of DoD
    efforts to confront and transform pervasive, decades-old financial management
    systems.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We did not review
    the management control program because the audit focused only on actions taken
    to obtain missing contract documents.


Prior Coverage
    During the last 5 years, no prior coverage had been conducted on contract number
    DAAH01-92-C-R399, other than the DCAA payment review discussed
    previously in the finding portion of this report.




                                        9
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Director, Program Analysis and Evaluation
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Defense Procurement and Acquisition Policy [for reports pertaining to
   significant systemic flaws in the procurement process]

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
       Director, Defense Finance and Accounting Service
Director, Defense Contract Management Agency
       Director, Defense Contract Management Agency, San Diego Office




                                           10
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        11
Defense Finance and Accounting Service
Comments


                               DEFENSE     FINANce                 AND ACCOUNTING                     SERVICE
                                                              FQ     oo.K.    141231'1'
                                               ~tI!ftIS,                  OHKH321&23i7




     DFAS-CSlCO                                                                                                      OC'J
                                                                                                                       H ..

     MEMORAND1JM           FOR OFFICE OF mE DEPUTY INSPECTOR OEN£RALFOR
                                 AUDITING. DEPARTMENT OF DEFENSE, D€f'ENSE
                                 FINANCIAL SERVICES

     SUBJECT~       :Depm1mentoftkf~         lfitipectM             General           Draft Report,    Pmject   No. D2004FJ~()()94;
                    "Amended    Report on COJitl1tct$ Classified                       as UnreconciiahlebymeDefense
                    Finance and Accountin~    Scrvlce.(Conuact                          No. DMUQl       "'92..CR399)~
                    dated SepfcmOer 2, '20()4



              Management comments to Reootmneodatiml$l,                                   2,. 3, and 4 cited iDtM swject draft audit
     nport.ar>e bc::ingprovided.

               My point of#,X)nt3~tfwMditiOtW               infonulldon is MI. :Usa t~y,                   DFAS-CSQA/CO.         She
     nla)' be reached at 61+693-1398 otDSN 869-7398.




                                                        t
                                                    .              '1
                                                >
                                                            '?/.J            /JfiJ~
                                                        I       i'...()      i
                                                        . .'.artba':steam5
                                                Depot)' Director
                                             Commercial Pay Servicfffl

     Attachment:
     A'i< $tl\ted




                                                    www-9faLmil
                                             Vow Fbmx:iat Pattn,r.                          W'im




                                                                      13
           Manaeemeat COmtHRfi to me Department of Infmse 11ts~tOJ' General
          Draft Rtport,'roj~t       No.D1OO4FJ~0094, "M1itndM .Jteport.OD CODtraeb
          OaMlfled.u    UD:rt'OOItcn.ble b)'the DefeoH.FmrmceudA«outiogService
                 (CHtrKi      No.. DA.AlIOI~2-C1U991    dared September 2, %004


We ..ecom.."           tbatth. Diredur, Delens.Finanee .Rd AerouJlti°K Serviee CoJumbuJ:

RetDmrneadatiou     1 ;.Perrouna filml wntrnct dOlle qulreCQllcitiatiQD Qn CootntctNo,
DAAROl-92-CR399,U$ing         the prevIously missing documents provided,

ManaeemeutCommmts:               Coocur. Contract numb« DAAHQl-9:2-CR399         h~ b~:nwUod      mto
the ttIiIil.ki-Sand will be a$$jsn~.tc) a CQntract« ~rting      thr; QlmmerciaJPay Sc{'Vj~~
Co.ntt.ac:f~g~matwn         officc, Tha e$timatod completIon d3teis &ptemb« 3(), 200$.
HowcveI:.tbis CQuld cJ:mnge depending on the budge'tOO houlS. whichisdetennined         by the size
andcomp]exitYQftbe        contract, Other factors affectinglhe eJtimate(l completion date are the
time requir~ tQ.Ol;na.inc.-nceled fuodsappro,,'al. rcp~mmtfimd$,.        or cumnt 'ycwfimdsif
n~~.
Estimated     ('omnletio.       Olt~;   September 30, 2005.


Recol1UJJe'ldntlon2:           Confirm the amount   Qfpotential()verpayment         pT()vidtXt to the oontractqr
andiniijatc   nx:Qv«y       action~, U$ noccsBry.

~taili.flemt1tt Commmbi:   (,oocur. Coofirmation ofanymonoy owed to tbeOovemmmt   is
~pcndwt uppn compl~ion ofatUll retondnation and tnayor may not be determinable until
cgmpl~oo ofthQ reoonciliation.

Estimated     Como1dioDDate:            September 30. 2005.


Recornme.datloa    3; .A4twst tbe M~baniwiofl   ofContnlct Administrntlon ServiC$i system
using intemalvQm;herentriC\S.asneeded~   and proceed witb the final closureprooosi on this
cQntract.

M)IUUlal!ntflIt     Commeahi:      Concur..   Any adjustmentsreqUJNd          will be prepared   at comphnion      of
th"'J«QncHiation,

&1timated ComDledo.             Date:   September 30. 2005.


Ree(tmmudatioa        4: Fot QthC:!'umec()11cilable     c<mtracts. ",xpiWd the distribution    HstQftbe
DFAScertific.atkm      memorandum      and specific'ilUy addreali each activity dw is a potential soUtec
of tbe vmous types of documentation        need~       anddesi,tn  11.ehccll:1ist totmck   the entire ~es$
of mlS$ing~umentation         8~4U'ebes.




                                                        14
Manaameat          (:o~LI~.         Concur. We concur that aU.1mown.aWYities associated with a
potentially u~1a:bleoontr4ct               mould be oontacted by the Defense FinMce and Accounting
Servi~ (DFAS) Colurn1ms,and a checkJ.l$.tshouldbc de$igtie4 to .~. the entire pr~$                  of
mi$$ingdocwrwnt~~hct                      U~ncilahteContrad         Guidancewasissved      MId
itnpl~            in.July 2004 that included an unrecoocibililechecklist     and lertmfor the
_inimativecoo~offic:er,:procurement\Xmtnlcting                      officer, ACQOunting.ation. IWOrds
1roldi~gactivity and the DFASColumbus reoonciliatioo brandh. A departme.nt.levcfmllitary
certittcationlettet.i$.C\I~ttt.ybdn8.~.(Jn1ywhen..I1            other ~       otoblaining documentation
have been ex.hatcd.          "fbi. pida.    was the rw~h Qf. workin. aroup~fXJ$ea           I)f
rep~tativcsfuJmArmy.                Navy, Air Foree. Deten.<\C(.ummetMana~t             A8~,Df'ASand
the o~       qf legal counsel. The guidance was also coordinated with the J)reputment .of Defen$!;
In$p~rGcnerr.d.

Emmated     Cnnmletion    Date;   Tmsrecommendatiioo      is oonsidmld   c:h,)$Cd. No further   acUoo   is
tequimt




                                                   15
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of Defense, Defense
Financial and Auditing Service Directorate prepared this report. Personnel of the Office of the Inspector
General of the Department of Defense who contributed to the report are listed below.

Paul J. Granetto
James L. Kornides
John K. Issel
Clarence E. Knight III
John P. Frawley
Karen M. Bennett
